•\

NO.

£0-7611

•) i j

iS

i. I

•^=••1

Supre.Tis Court, US-------)
FILED

JAM D 8 2321
^OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Carl Womack (Petitioner)
Vs.
Merrimon Oxley (Respondent)

ON PETITION FOR A WRIT OF CERTIORARI TO
NORTH CAROLINA SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

Carl Womack
1429 West Floyd Baker Blvd Suite 103
Gaffney SC 29341
(828) 279 4737

RECEIVED
JAN 1 9 2021
OFFICE OF THE CLERK
SUPREME COURT. U.S.

|

Questions
Is Merrimon Oxley tied to a major international cult?
Is the gatekeeper order a matter of significance to the united states
Did Judge Pope have a conflict of interest
Was the gatekeeper order put in place to keep a violation of the rules of civil
procedure covered up.
Did Merrimon Oxley falsify records.
Is the Gatekeeper order unconstitutional?
Were my civil rights violated by the imposition of the gatekeeper order.
Does the Gatekeeper order go against US supreme court decisions?
Is the gatekeeper order too broad

LIST OF PARTIES OXLEY
ALL PARTIES APPEAR IN THE CAPTION OF THE CASE ON THE COVER
PAGE.
RELATED CASES
Gate Keeper order Rutherford County NC
NC Appeals Court No. 20-136
NC Supreme Court No. 20-136

TABLE OF CONTENTS OXLEY
OPINIONS BELOW 1
JURISDICTION 2
CONSTITUTIONAL AND STATUTORY PROVISONS 3
STATEMENT OF THE CASE 4-8
REASONS FOR GRANTING THE WRIT 9-12
CONCLUSION 13

INDEX TO APPENDICES
APPENDIX A
North Carolina Supreme Court 427P20-1
Motion is dismissed.
APPENDIX B
North Carolina Court of Appeals NO 20-136
The motion to dismiss by Merrimon Oxley, is dismissed as moot.
APPENDIX C
Carl Womack vs Merrimon Oxley Gatekeeper Order 19 CVS 804
A gatekeeper order against Carl Womack shall include Buncombe, McDowell,
Rutherford, Cleveland, and Henderson Counties, and all of the matters pertaining
to Mrs Oxley in any Federal court or state court proceeding. Including The Estate of
Ruth Womack, The Competency of Ruth Womack. The only way Mr. Womack can
pursue any matter is by the approval of a licensed attorney in the state of North
Carolina. As for Mr. Womack’s motion for Trial by Jury, it is dismissed as futile.

OPINIONS BELOW OXLEY

GATE KEEPER ORDER 19 CVS 804 Unpublished
NC COURT OF APPEALS 20-136 Unpublished
NC Supreme Court 427P20-1 Unpublished

Decision of Judge Marvin Pope Regarding Carl Womack vs. Merrimon Oxley

There were no Findings of Fact nor conclusions of law in regards to my motion to
have the case moved out of the county or my motion for a Trial by Jury, in fact, the
only thing Judge Pope said in regards to them was, they are denied as BEING
FUTILE.
I had filed a lawsuit against Oxley, he dismissed the case.
She had filed a gatekeeper order against me. His decision was the following:
Carl Womack shall be prohibited from filing any documents in regards to anything
connected with Merrimon Oxley, in the counties of Buncombe, Rutherford,
McDowell, Polk or Cleveland counties unless he first submits documents to a
licensed attorney in north Carolina, who, in writing approves the documentation.
The gatekeeper order includes the matters of Carl Womack Vs, Merrimon Oxley,
The guardianship of Ruth Womack, The estate of Sandra Summey, Carl Womack vs
Steve Owens and John Carroll Social Services, Carl Womack vs Cleveland County,
The Estate of Ruth Womack,

TABLE OF AUTHORITIES OXLEY
12345-

North Carolina Judge’s Bench Mark (page 4 Reasons to Grant)
The Olmstead Act (page 4 Reasons to Grant)
American’s With Disabilities Act (page 4 Reasons to Grant)
O’Connor vs Donaldson (page 4 Reasons to grant)
In Cromer, 390 F 3d at 819 a Fourth Circuit Court Of Appeals vacated an
gatekeeper order for being Overboard with Restrictions. 390 F 3d at 819
6- Right to Trial by Jury, North Carolina Constitution page 2

JURISDICTION OXLEY

The Dismissal from the NC Supreme Court was entered October 15 2020. Enclosed
is a copy of the dismissal.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
In Re Cromer Fourth Court of Appeals
Falsifying documents
Defrauding the US GOVERNMENT

STATEMENT OF THE CASE Oxley
. Intrigue, an international cult, Millions of dollars, and a federal judge. What do
they all have in common"??? Read and find out.
In my 58 years of life, I have filed a total of 5 lawsuits, all of which were done since
2017 and either involved my mother, or myself or both of us. In each case I had
evidence of wrong doing and 2 cases, were mainly dismissed due to lack of
jurisdiction. I filed two lawsuits against Merrimon Oxley, and 2 reports with the
state bar. Yet, a gatekeeper order was written against me.
Several parts of Oxley’s gatekeeper order have nothing to do with her at all, and
one, I didn’t know for a long while, involved her, and her reason for putting it in the
gatekeeper order was to do a coverup. I and my mom filed a lawsuit against the
Rutherford County clerk of court, and Social Services in federal court, the case was
dismissed, but I appealed it to the appeals court, where all charges were dropped
except one count, and it involved social services, which was remanded back to
district court. In district court, Oxley was strangely appointed my mom’s GAL, and
immediately moved to dismiss the case. What I did not know at the time, was that
Merrimon Oxley works FOR Social Services. That’s a Conflict of Interest.
Oxley worked for the District Attorney’s office, and is friends with several judges.
What she did against me, is a clear indication that all courts need to be monitored
more closely. Yes, look at all the courts who targeted blacks decades ago, and still
do. Look at all the people being released from prisons who were proved innocent by
DNA who were convicted decades ago by biased judges and juries.
Oxley’s friendships often biased judges against me, including a now former judge,
Randy Pool, who resigned as judge amid accusations by several women who claimed
he used his position as judge to pressure them for sex. I say often because Oxley did
NOT get her away every time and I will point that out in another document. Yet,
almost every petition or motion I presented in any court was denied, often violating
the rules of civil procedure.
Yet I never ran, I never quit, I never gave up, and I’m still going, still fighting, and
starting to WIN. Now, investigations are opening from different agencies, both
federal and state. I lost battles because judges were biased against me, now top
leaders in agencies are ordering investigations.
Now (I) have allies, and from agency*s Id never heard of yet welcome their input.
And when those agencies tie in a major international cult which
has made headlines over and over again, it will be major news for the world. I look
forward to that day.

From the very first case I filed in Federal court, I had a judge be prejudice against
me, Martin Reidinger, each time I filed a case in federal court, he addressed them
himself though other judges had taken the cases. Why? Why would he take over
cases other judges had already been issued? MOTIVE. Could it be because of his
ties to the cult, a cult with millions of dollars in assets?? It is referred to as a cult
by several organizations as well as two Associated Press writers in a new book. The
church is referred to as WOFF, and Reidinger had one of the members work for him,
as well as gave speeches at a forum for members in Cleveland County NC. Several
news agencies have covered activities of the church, and just a short while back
some of the followers were convicted in Federal Court for corruption, strangely
Reidinger was the judge, and they were given what is considered by many to be
light sentences. The church has members worldwide, and even celebrity is a known
member. Judge Marvin Pope was the one who ruled for the gatekeeper order
against me, yet he has a strong conflict of interest. He is a residing judge in
Buncombe County, yet came to Rutherford County to hear the case, I’m assuming
because no judge in Rutherford County wanted any part of it, as they had indicated
before. Thing is, The clerk of court of Buncombe County is one of the people I
attempted to sue in federal court, long before Pope hearing the gatekeeper case.
And the top clerk of court of Buncombe County, got judge Pope a major grant for a
project.
Next of course is the fact that Oxley wrote that the gatekeeper order should apply to
several counties and cases. That goes against a court decision In Cromer, a Fourth
Circuit of Appeals vacated an order that was “Overboard with Restrictions” Thing
is, Oxley was only officially named in TWO lawsuits. Both only targeting her. One
was attempted in Federal Court, but both the district and appeals courts ruled
Oxley was not a state actor, therefor the lawsuit lacked jurisdiction.
The other is the state lawsuit I filed against her which got thrown out during the
gatekeeper hearing by Marvin Pope.
ALL of the other federal cases: Carl Womack vs Steve Owens, and John Carroll,
Adena Widener et al., Carl Womack vs, Cleveland County Clerk of Court, Karen
Wright et al. and Carl Womack vs Johanna Finkelstein, did not name Oxley as a
defendant.
She also included several counties which had nothing to do with her at all.
She included Rutherford County in the gatekeeper order, and she mentioned a
matter before a Judge Davis, about me filing for the competency of my mom Ruth
Womack. Only problem with that is judge Davis, on his own accord, ruled to move
cases from Rutherford County to another. He stated in court and I quote, “I’M NOT
TOUCHING THIS CASE”. Oxley, objected, but he ruled to move it out anyway and

it went to Henderson county. I have several witnesses to that effect along with court
record.
Next, she included McDowell County. After I filed a lawsuit against Rutherford
County, Steve Owens, recused himself from my mom’s re competency hearings and
sent it to McDowell. Yet it was not accepted in McDowell county. The clerk of court
own her own accord, stated that she was recusing herself from any cases, due to a
conflict of interest involving Oxley. I had nothing to do with that whatsoever.
She included Henderson County in the order. What happened there was her own
fault, not mine. Any time I went to see a clerk of court, I was told they could not
talk to me outside the court room, which I later found out is per rules of civil
procedure. I went to the clerks office one day to file paper work about the re
competency of my mom, only to find Oxley entering in the office with the clerk of
court, and the door being closed. They were in there for at least 20 mins. Upon
exiting, Oxley looked over at me and quickly ran out a side door. I complained to the
clerk of court, and she moved the case out of her court to Cleveland county.
In the Cleveland county federal case, again, Oxley was not named as a defendant.
Yet here is the one thing that troubled me about the entire time I was fighting to
get my mom’s competency restored, Oxley, who was only GUARDIAN OF THE
ESTATE, not of the person, was the one who continued cases, and was the only
person at the hearings until the hearings began in Buncombe County. In
Cleveland, county, her and Karen Wright, who was appointed to be my moms
guardian ad litem, sat back laughing and talking about going out to eat and
shopping. There was a holiday approaching, and the clerk of court motioned to
continue the case.; In court, Karen Wright, told the clerk to ‘TAKE HER TIME,
SHE NEEDS A VACATION”. When I objected to it, I was threatened with JAIL. All
the while Oxley and Wright continued to talk about the THREE OF THEM
GETTING TOGETHER. I have a witness to that.
When I filed for my mom’s competency, I had checked the document for a trial by
jury which is guaranteed under the North Carolina constitution. Karen Wright
motioned to remove it from the case. That’s right, she motioned to stop my mother
from having a jury trial and the clerk of Cleveland County ruled in her favor. I then
filed a federal lawsuit against the clerk of court and Karen wright. Wright was also
named after she told me I did not have to appear in court, that the case was being
continued. I became suspicious and went into the court room to find it in session.
Yes, lied to. Also, documents were being presented by Karen Wright, and if I had
not been there, my moms competency case would have been dropped.
I filed a complaint with the North Carolina state bar about it and was told it did not
violate their rules. Yet, in 2019, Karen Wright was DISBARRED for the exact same
thing, and I found out she had been charged with the same thing previously!!!

DOUBLE STANDARDS. She lied about court sessions to me, she filed documents
that my mom never approved of or even knew of. After I filed the lawsuit against
Cleveland County, the case and other cases, including a case where William Smith
had petitioned to remove Oxley as Ruth’s guardian of the estate were sent to
Buncombe County.
I was so hoping everything would be different in Buncombe County, it was not. I
did not know at the time that the clerk of court, Johanna Finkelstein was friends
with Oxley. After finding out, at one of the hearings, I asked her point blank,
“Aren’t you friends with Merrimon Oxley” she replied, “you are not allowed to ask
me questions”. I repeated, Isn’t it true you are friends, and she said “I refuse to
answer that question”;
Again, Merrimon Oxley was only guardian of the estate, yet she was the one who
got cases continued, so before the hearing I sent an order for my mom to appear in
court so I could prove she could do all the things social services said she could not.
I filed to have my mom appear in court, Finkelstein blocked it. That’s ILLEGAL!!!
I petitioned to have my mom freed under the Olmstead Act, Finkelstein ignored it. I
motioned for the case to be moved to Federal court, Finkelstein denied it.
Nothing but corruption, I can only imagine what happens to people in her
courtroom who don’t know the law. Yes, she has a reputation of doing the same
thing to other people. And I’m tired of hearing the Jewish shit. I am a member of a
Jewish organization, yet I don’t get the same treatment, I get my rights and my
moms rights violated over and over again.
Yes, I filed the lawsuit against Oxley in state court, and it was dismissed during the
gatekeeper order hearing, I had asked for a jury hearing regarding the Oxley
lawsuit as well as one for the gatekeeper order against me, both denied WITHOUT
CONCLUSIONS OF LAW by Marvin Pope.
So I appealed to the NC Court of Appeals. There, the case was dismissed on a
technicality, Oxley had stated I did not send her certain documents, and that
documents weren’t paginated. NC dismissed the case. I then appealed to the NC
Supreme Court who did not even give me a reason why they rejected the case.
Oxley brings up repeatedly the gatekeeper order needs to be in place because of
underlying proceedings, claiming I had cases continued. That’s not true. She is the
one who got cases continued, and there are SEVERAL letters to the courts about
her having to go to the doctor, and then there is the one where I found out she
works for social services. THAT ONE IS GOLDEN TO ME!!! She states, that she
cannot come to court because she represents SOCIAL SERVICES in child cases. Ah,
the NUMEROUS times, she messed up.

I have stated, that I am not a police officer, or a detective, yet I’ve uncovered so
much deception and misconduct, that a real federal agent will have a field day with
these people if any federal investigation opens against them. And that is soooooooo
true!!!
My next action will be to perhaps write a book about all this and have it published
as I have with my first book.
Yes, Judge Pope had a conflict of interest because part of the gatekeeper order
involved Johanna Finkelstein, Pope got a major grant because of steve cogburn
buncombe county clerk of court.
Then of course there is the falsifying records done by Oxley.
In Pope’s ruling he dismissed my lawsuit against Oxley, put the gatekeeper order
into action, and included all of the court proceedings and counties she requested. I
had also noted I demanded a jury trial as well as to have the case move the case out
of the area. He didn’t note any conclusions of law, he simply stated that they were
FUTILE. And THAT is on his gatekeeper order.

J

}

REASONS FOR GRANTING PETITION OXLEY

Donald Trump is said by the Justice Department to have filed numerous baseless
lawsuits, yet nothing done about it, no Gatekeeper order on him. It’s a double
standard to not put gatekeeper orders on people who are celebrities.
The national significance of the case rests in the fact not only am I targeted for
being a pro se litigant yet also because I’m not an attorney. Also because Oxley, who
use to work for the District Attorney’s office, came up with the gatekeeper order, to
coverup violations of the rules of civil procedure. She used her influence to get
people to block every petition or motion I made. But that’s not all. When Oxley
worked for the District Attorney’s office it was at a time the DA was getting favors
from a large international cult, known as the WOFF which even has a celebrity as
one of its members. Numerous accusations from former members plagued the
church, until the federal government stepped in and got some of the members for
unemployment fraud. WOFF has been featured on ABC and CBS news and on
Inside Edition as well as in numerous newspapers. A recent book about WOFF was
written by two Associated Press writers.
My mom had been ruled incompetent in Rutherford County NC and ordered to
enter a nursing home. I filed a federal lawsuit against the Rutherford County Clerk
of Court, as well as two Rutherford County Social Services workers, namely, John
Carroll the director and Adean Widener. Part of the lawsuit involved my mom Ruth
Womack. The case was dismissed in District Court, and I appealed to the Appeals
Court where all but one count was dismissed. The one count only involved my
mother Ruth, and I was told I would not appear in court. The count involved DSS
telling my mom’s bank not to lend her money for a lawyer. The case was remanded
back to district court, where I learned later that Oxley was appointed my mom’s
Guardian Ad Litem instead of being appointed a US Attorney. Oxley was my mom’s
Guardian of the Estate. Oxley immediately moved for dismissal. What I did not
know at the time was that, in fact, Oxley works for DSS. And I have her own words
as proof. In a letter calling for a continuance of a case, Oxley stated, “I WORK FOR
SOCIAL SERVICES AND HAVE A COURT DATE THAT DAY’. LUCKILY, I was
sent a copy of that document requesting a continuance. Yes, a clear conflict of
interest. So before I found that out, when Oxley included the matters of the lawsuit
over the Rutherford County Clerk of Court and Social Services, I was perplexed as
to why, since she was not a named defendant. Now I know why, to coverup her
involvement over the dismissal of the case, that was in 2017.1 petitioned to have
my mom’s competency reinstated, and Oxley, though only a guardian of the estate,
moved to block it, the reason being retaliation for my filing the lawsuit against
social services, and to try and get and sell both my sister’s estate, and Ruth’s my

mom. Oxley is one of many in government who use their authority and their
friendships with government workers to bully and deny people who cannot defend
themselves their rights.
Oxley also included various other court actions and counties in her gatekeeper
petition.
1- McDowell County, After I filed a federal lawsuit against Rutherford County,
the clerk there, Steve Owens recused himself, and wrote a letter to the Clerk
of Court of McDowell County asking them to take the case. Yet the clerk of
court renounced herself from the case concerning my mom’s competence,
citing a conflict of interest with Oxley since they worked together at the
District Attorney’s office. I had nothing to do with that, yet Oxley includes it
in her gatekeeper order.
2- My lawsuit against a Cleveland County Clerk of Court, and my mom’s
Guardian Ad Litem in Cleveland County, Karen Wright. Again, Oxley is not
a named defendant. In her gatekeeper petition, she said my claim against
Karen Wright was frivolous, Funny thing, while my case against Wright was
dismissed by the Federal Court in Asheville as being frivolous, later Wright
was charged by the NORTH CAROLINA STATE BAR FOR THE SAME
THING AND DISBARRED!!! And she had been reprimanded before for the
same thing.
3- As for the Clerk of Court of Cleveland county, I could go on for hours over

what happened in her court room when I was there. But I am limited in space
for the Supreme Court, Yes, so much happened, that I would need extra
pages., Hearings were continued several times by Mrs. Oxley, and by Karen
Wright. And they had a hearing about my filing for the reinstating of Ruth’s
competency, I had asked for a jury hearing which is guaranteed, by both the
US and NC Constitutions. Strangely, Karen Wright motioned to have my
mom’s right to trial by jury revoked, and the clerk agreed!!! Right to trial by
jury in a Civil Proceeding is guaranteed under the North Carolina
Constitution.
4- There were the numerous times, all three sat in the court room before session
laughing and talking about the three of them going shopping and dining
together, and during one session, when a holiday was approaching, Karen
Wright commented to the Clerk of Court, to take her time about rescheduling
the case and to quote “Take a vacation, you need to relax”, When I objected,
the clerk yelled at me saying to shut up or go to JAIL. Each time I objected I
was threatened with jail, while they sat in the court room laughing and
talking about doing things with each other. Oxley leaves all that out of her

5-

6-

7-

8-

gatekeeper petition, and I have a witness to it. There are all the times Karen
Wright told me there was no court, that the competency was continued but I
went in anyway to find court in session. Once, in the hall, she came up to me
and told me court would not happen, that it was continued, but I was
suspicious and went in anyway, Court started and Wright had presented a
motion that, if I had not been there, the case would have been dismissed.
The federal case was dismissed in District court for being frivolous OF
COURSE BY MARTIN REIDINGER, and I failed to file in time for it to be
heard in the Appeals Court.
Oxley claimed I got the case about my mom’s re competency moved out of
Rutherford County, but that’s not true. After I filed the Lawsuit against the
Clerk of Court of Rutherford County, he, Steve Owens recused himself, and
the case was heard in Superior Court by a judge Davis. Davis, refused to even
hear the case, and moved to move it out of the county. Oxley demanded the
case be heard in Rutherford County, but Davis refused and moved it to
Henderson County. I had nothing to do with it being moved out of Rutherford
County, that was judge Davis’ decision and I have witnesses to that effect
and court record.
In Henderson County, Oxley met with the Clerk of Court behind closed doors
and I seen it happen. I complained to the Clerk about it, and she recused
herself from the Competency case and it was moved to Cleveland County.
Anytime I met with any clerk of court, I was told they could not talk to me.
Oxley knows that as well, she is an attorney, yet met with the Clerk of Court
in Henderson county tainting the case.
The gatekeeper order was supposedly about Oxley, yet again, in several
circumstances, she included things that did not directly involve her. In 2019,
thankfully she had resigned as my mom’s Guardian of Estate. In court, she
presented items that I showed in court to not be true. She stated that my
mother’s homeowner insurance was paid by checks, but my mom’s own bank
statements revealed automatic drafts came out monthly, and the amounts of
the checks were never shown to be withdrawn from my mom’s account. So
where is the money?? Oxley claimed $146 came out of my mom’s bank
account to pay for dental insurance, but Medicaid always paid for my mom’s
dental work, plus, the guardian of the person, Hope for the Future said that
the money came from the nursing home, not from my mom, and in fact, in
none of my mom’s bank statements, there is no listing of money in that
amount being taken out nor showing anything about any dental insurance.
Yes, missing money!!! Oxley never paid the taxes on my mom’s property, I
did. Oxley made claims for other bills which I showed in court were bills I
had sent to me, and that could not be my mom’s since she was put in the

nursing home. William Smith an accountant, had petitioned to replace Oxley,
claiming mismanagement of my mom’s estate.
9- The competency case finally went to Buncombe County. I learned about the
Olmstead Act, and I petitioned the court to release my mom for it and ADA.
The Clerk of Court, Johanna Finkelstein simply ignored it. In 2012, the US
DEPARTMENT OF JUSTICE SUCCESSFULLY SUED NORTH CAROLINA
FOR OVER 2000 violations of the Olmstead Act and won. I filed a lawsuit in
Federal Court against Finkelstein, it was dismissed as being frivolous, I
appealed to the Appeals Court who stated the same thing.
10-Whatever happened to Amendment ONE of the Bill of Rights??? I have the
right to petition the court. And I was doing what the DOJ had done, only I’m
not a us attorney, and I was met with discrimination. My lawsuit against
Finkelstein does not involve Oxley, yet she included that case in her
gatekeeper order.

The NORTH CAROLINA JUDGES BENCHMARK ADDRESSES
GATEKEEPER ORDERS.
It states that gatekeeper orders are a LAST RESORT. When sanctions fail. I
was never given any sanctions by any North Carolina Court.
It states that if the gatekeeper order is from one party, then it should be
NARROWLY TAILORED to that party.
As for the dismissals by the Federal District Court, all were by the same
Judge, a man who has ties to the WOFF, Martin Reidinger. Who had one of
the members once work for him and he has been a public speaker, at a WOFF
function.
One-time other judges were given a lawsuit by me and they were already
asking for documents. One of the judges was named Cogburn, but Reidinger
got them removed from the case, called it frivolous and dismissed it himself.
On 2 occasions when Reidinger dismissed cases himself, the Appeals Court
cited that Reidinger should have given me the opportunity to amend my case.
Is it frivolous to protest a person right to trial by jury be revoked?
Is it frivolous to petition the court to follow US SUPREME COURT
guidelines, and to complain when that court ignores them???
Martin Reidinger has motive.
In both Federal and State courts, Civil Rights violations occurred.
Violations of the Olmstead Act, Americans With Disabilities Act, O’Connor
Vs Donaldson, The First Amendment Right to Petition the Government.

Conclusion

The Writ Of Certiorari Should Be Granted

Respectfully Submitted
Signed

Dati

L

DECLARATION
I Declare under penalty of peijury that all facts contained herein are true the best
of my knowledge.
Signed

Carl Daniel Womack
01//04/2021

No.

IN THE
SUPREME COURT OF THE UNITED STATES

CARL WOMACK (Petitioner)
Vs.
Merrimon Oxley (respondent)

PROOF OF SERVICE

I, Carl Womack, do swear or declare that on this date
2021 as required by
Supreme Court Rule 29,1 have served the enclosed Motion (For Leave To Proceed In
Forma Pauperis and Petition For Writ Of Certiorari on each party to the above
proceeding, or party’s counsel. And on every other person as required to be served
by depositing an envelope containing the above documents, in the US MAIL,
properly addressed to each of them, and with certified delivery.
The names and addresses of those served are as follows

I declare under penalty of perjury that the foregoing is true and correct. Executed
on.
2021

Signature

